\
\

IN THE UNITED STATES COURT OF APPEALS

FILED
U.S. COURT OF APPEALS
ELEVENTH CIRCUIT

FOR THE ELEVENTH CIRCUIT

APR OS 2021
No. 20-14112-A

David J. Smith
Clerk

CHARLES GIVENS,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appeilees.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Charles Givens moves for a certificate of appealability (“COA”) and leave to proceed in
forma pauperis (“IFP”), to appeal the district court’ s denial of his 28 U.S.C. § 2254 petition. To
merit a COA, he must show that reasonable jurists would find debatable both (1) the merits of an
underlying claim, and (2) the procedural issues that he seeks to raise; See 28 U.S.C. § 2253(c)(2);
Slack v. McDaniel, 529 U.S. 473,478 (2000). Givens’s motion for. a COA is DENIED because he
failed to make the requisite showing, and his motion for leave to proceed IFP is DENIED AS
MOOT.

ED STATES Cl

j

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page lot 21 PagelD 1017

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION

CHARLES GIVENS,
Petitioner,
v.

Case No. 5:17-cv-160-Oc-35PRL

SECRETARY, DEPARTMENT
OF CORRECTIONS, et al.,
Respondents.

ORDER DENYING PETITION
This cause comes before the Court on Charles Givens’ pro se petition for the writ
of habeas corpus under 28 U.S.C. § 2254. Petitioner challenges his conviction for
second-degree murder. (Doc.1.) The State concedes that the petition is timely. (Doc.
14.) Petitioner has filed a reply. (Doc. 17.) Because the Court may resolve the petition
based on the record, an evidentiary is not warranted. See Rule 8(a), Rules Governing
Section 2254 Cases in the United States District Courts.

BACKGROUND
Petitioner was charged in by information in Lake County, Florida, with one count
of second-degree murder. (Respondents’ Appendix, Doc.15, Exh. A (hereafter “Exh.").
On April 29, 2012, Petitioner walked into the Leesburg Police Department and told
officers that he had just killed his wife, Carol Benton. (Exh. C, pp. 24-26, 32.) He
provided the officers with the victim's address and the police found her body, which had
multiple puncture wounds in her chest and back. (Id. at 31.) Petitioner informed the

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 2 of 21 PagelD 1018

police that the victim had picked up a knife and came at him in a way that suggested she
was going to stab him. (Id. at 114-19.) He informed police he "blanked out" and did not
remember much of what happened. (Id. at 121,127.)
Petitioner’s trial commenced on June 10, 2013. (Exh. C, p.1.) Officer Gus
Escalante of the Leesburg Police Department testified that shortly after 4:30 p.m., on
April 29, 2012, Petitioner entered the police station and stated he had just killed his wife.
(Id. at 24-26.) Later, Petitioner told Officer Stevens that he had just killed his girlfriend by
stabbing her to death. (Id. at 95.) Petitioner had blood on his shirt, shoes, and shorts. (Id.
at 34.)

Officer Escalante drove to the victim's address and, in approaching the

apartment, he noticed what appeared to be blood leading up to the apartment. (Id. at 3234.) He testified he did not enter the apartment but could see the victim lying on the floor.
(Id. at 32-33.) Sgt. Allen Carter testified that he was one of the first two police officers to
arrive on the scene. (Id. at 36-37.) He noticed blood drops leading to the apartment. (Id.
at 38-39.) The apartment door was open 2-3 inches and he entered and saw the victim.
There were no signs of life and it was apparent the victim had bled profusely. (Id. at 3940.) Later, the victim was pronounced dead. (Id. at 41.) He took photos of the crime
scene which were published to the jury. (Id. at 42-47.)
Crime scene investigator Amanda Wolford testified that she had taken photos of
the crime scene, which were published to the jury. (Id. at 53, 56-60, 62-65.) Ms. Wolford
also testified she had collected physical evidence from the scene including a knife found
in the sink. (Id. at 61.) She did not find anything else in the sink and there was nothing in
the drainer. (Id. at 71-72, 74.) She stated she did not find any other knife outside of a
drawer. (Id. at 71-72.) Ms. Wolford checked the knives in the drawers and found they did
2

!

Case 5:17-cv-00160-MSS~PRL Document 24 Filed 09/29/20 Page 3 of 21 PagelD 1019

not have any blood on them. (Id. at 72.) There was a question of whether Petitioner lived
at the victim's residence, but Ms. Wolford did not find any male clothing in the house. (Id.
at 73.) She did, however, find some items belonging to Petitioner in a utility closet
outside the residence. Ms. Wolford did not find any sign of forced entry. (Id.)
EMT Mark Fuser testified that he arrived with the ambulance at the Leesburg
Police Department and found Petitioner sitting in a chair. (Id. at 89.) Initially, Petitioner
would not tell them what happened. He did, however, state he had killed his wife. (Id. at

89.)
Police officer Jeremy Stevens testified he was with Officer Escalante when
Petitioner entered the police station. (Id. at 94.) Petitioner informed them he had just
killed his wife. (Id. at 94-95.) They sat him in the lobby and he again told them he had
killed his wife. (Id. at 95.) Officer Stevens testified Petitioner had a small puncture wound
on his leg. (Id. at 96.) Petitioner had blood on his pants and shoes. Before he was
transported to the hospital, Petitioner was advised of his Miranda1 rights, and he agreed
to speak with Officer Stevens. (Id. at 98-99.) Petitioner was brought to the hospital and
Officer Stevens went to the hospital and interviewed Petitioner. (Id. at 99-100). Officer
Stevens recorded the interview.
During the trial on June 10, 2013, Officer Stevens' interview of Petitioner was
played to the jury and contained a confession by Petitioner. (Id.)

After the audio

recording was played, the trial court took a recess for about twenty minutes. (Id. at 10148.) When the recess concluded, defense counsel requested another recess for

1 Miranda v, Arizona, 384 U.S. 436 (1966) (holding that the Fifth Amendment requires that law enforcement
officials advise suspects of their right to remain silent and to obtain an attorney during interrogations while in
police custody).
3

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 4 of 21 PagelD 1020

approximately five minutes. (Id. at 148.) After the second recess, defense counsel
informed the court Petitioner wanted to enter a plea to. the court. (Id. at 149-51.) Court
recessed for the evening.
On June 10, 2013, Petitioner signed a Waiver of Rights and Agreement to Enter
Plea and pleaded guilty to the charge. (Exh. D.) The Waiver of Rights contained a
statement saying Petitioner requested a term of imprisonment of 35 years, but he
understood the judge could enter any legal sentence up to life imprisonment. (Id.). There
was a line on the plea agreement for Petitioner to initial and he did. (Id.). At that point,
the trial court held a change of plea hearing. (Exh. C, p. 151.)
During the plea colloquy on June 11, 2013, Petitioner stated he had read and
understood the Waiver of Rights and had signed it the night before and initialed any
subsequent changes that day. (Id. at 151-52.) He stated he understood he was waiving
any defenses he had and that he was entering the plea freely and voluntarily. (Id. at 15253.) He stated it was his decision to enter the plea based upon advice from counsel. (Id.
at 154.) Petitioner further stated under oath that he understood he could be sentenced to
life in prison. (Id. at 154-55.) He acknowledged he was entering a guilty plea because he
was guilty of the crime. (Id. at 155.) There was a discussion of the various plea
' negotiations and the prosecutor informed the court the negotiations were unsuccessful
because the victim's family would settle for nothing less than life. (Id. at 155-56.) When
asked by the prosecutor, Petitioner stated that he had been unaware of the damage he
had done to the victim, but he did not have any questions about what was discussed in
the courtroom. (Id. at 156-57.)
•

On October 21, 2013, the trial court sentenced Petitioner to life in prison. (Exhs. E;
4

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 5 of 21 PagelD 1021

F.) On October 25, 2013, Petitioner wrote a letter to the trial court stating it was never
his intention to plea to the court. (Exh. G.) He accused defense counsel of misleading
him by informing him the trial court would rule in his favor and he would not receive a life
sentence. The trial court construed Petitioner’s letter as a motion to withdraw plea and
set it for a hearing and appointed conflict counsel. (Exh. H.) The trial court held a hearing
on March 6, 2014, at which time Petitioner and trial counsel testified. (Exh. I.). On March
7, 2014, the trial court entered an order denying Petitioner's Motion to Withdraw Plea.
(Exh. J.).
Petitioner filed an appeal with the Fifth District Court of Appeal, and the Office of
the Public Defender filed a brief, alleging trial court error in denying the motion to
withdraw plea. (Ex. K.) The Public Defender also filed a motion to withdraw pursuant to
Anders v. California, 386 U.S. 738 (1967). (Ex. L.) Petitioner filed a pro se supplemental
brief alleging the trial court erred by not advising him of the potential for a life sentence;
by denying his motion to withdraw plea; and for reclassifying his conviction from a firstdegree felony to a life felony. (Exh. O.) On May 12, 2015, the Fifth DCA per curiam
affirmed Petitioner’s judgment and sentence. See Givens v. State, 166 So. 3d 805 (Fla.
5th DCA 2015); (Exh. Q.) Mandate issued on June 5, 2015. (Exh. S.)
Petitioner filed a pro se motion for post-conviction relief on December 10, 2015
raising five grounds of ineffective assistance of trial counsel and one ground of
prosecutorial misconduct. (Exh. T.) On March 7, 2016, the trial court entered an order
summarily denying the motion. (Exh. U.) Petitioner filed a motion for rehearing on March
22, 2016, (Exh. V), which was denied on March 30, 2016. (Exh. W). Petitioner appealed,
and the Fifth DCA per curiam affirmed the trial court on June 21, 2016. See Givens v.
5

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 6 of 21 PagelD 1022

State, 216 So. 3d 639 (Fla. 5th DCA 2016); (Exh. X.) Mandate issued on July 15, 2016.
(Exh. Y.)
Petitioner filed a successive motion for post-conviction relief on August 15, 2016,
(Exh. Z), which was dismissed on August 24, 2016 since the grounds raised had already
been addressed by the motion to withdraw plea and previous motion for post-conviction
relief. (Exh. AA.) Petitioner filed a pro se motion for rehearing, which was denied by the
trial court. (Exh. BB; CC.) Petitioner appealed. (Exh. DD.) The Fifth DCA per curiam
affirmed the trial court’s dismissal of the successive motion on February 7, 2017. See
Givens v. State, 229 So.3d 1247 (Fla. 5th DCA 2017); (FF). Mandate issued on March
3, 2017. (Exh. GG.)
Petitioner filed the instant petition for writ of habeas corpus on April 5, 2017. (Doc.
1.) He raises seven grounds for relief:
1.

He is actually innocent of second-degree murder

2. Trial counsel was ineffective for failing to depose the State’s witnesses
3. Trial counsel was ineffective for failing to develop a self-defense strategy
4. Trial counsel was ineffective because she was not assigned to his case long
enough before going to trial
5. His plea was involuntary because he was coerced by trial counsel
6. His speedy trial rights were violated when trial counsel waived them without his
permission
7. Trial counsel was ineffective for failing to object when the wrong evidence (i.e.,
the knife used in the incident) was introduced at trial
{Id.) The State contends that Grounds 1, 2, 4, and 6 were not properly exhausted in the
state courts and are without merit; and Grounds 3, 5, and 7, though exhausted, are
without merit. (Doc.14.)

6

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 7 of 21 PagelD 1023

STANDARD OF REVIEW
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) requires a
prisoner who challenges “a matter ‘adjudicated on the merits in State court’ to show that
the relevant state-court ‘decision’ (1) ‘was contrary to, or involved an unreasonable
application of, clearly established Federal law,’ or (2) ‘was based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.’” Wilson v. Sellers, 138 S, Ct. 1188, 1191 (2018) (quoting 28 U.S.C.§
2254(d)). A habeas petitioner “meets this demanding standard only when he shows that
the state court’s decision was ‘so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for fair-minded
disagreement.'” Dunn v. Madison, 138 S. Ct. 9, 11 (2017) (quoting Harrington v. Richter,
562 U.S. 86, 103 (2011)). See also Meders v. Warden, Ga. Diagnostic Prison, 900 F.3d
1330,1344 (11th Cir. 2018) (“[l]f some fairminded jurists could agree with the state court’s
decision, although others might disagree, federal habeas relief must be denied.”) (citation
and quotation marks omitted).

EXHAUSTION AND PROCEDURAL DEFAULT
The requirement of exhausting state remedies as a prerequisite to federal review
is satisfied if the petitioner “fairly presents” his claim in each appropriate state court and
alerts that court to the federal nature of the claim. 28 U.S.C. § 2254(b)(1); Picard v.
Connor, 404 U.S. 270,275-76 (1971). The prohibition against raising unexhausted claims
in federal court extends not only to broad legal theories of relief, but also to the specific
assertions of fact that might support relief. Kelley v. Sec’y for Dep’t of Corn, 377 F.3d
1317, 1344 (11th Cir. 2004).
A federal claim is subject to procedural default where the petitioner failed to
7

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 8 of 21 PagelD 1024

properly exhaust it in state court and it is obvious that the unexhausted claim would now
be barred under state procedural rules. See Bailey v. Nagle, 172 F.3d 1299, 1302-03
(11th Cir. 1999). A procedural default may be excused if the petitioner establishes (1)
cause for the default and prejudice, or (2) a fundamental miscarriage of justice. Id. at
1306. The fundamental-miscarriage-of-justice exception is “exceedingly narrow in scope”
because it requires proof of actual innocence, not just legal innocence. Johnson v.
Alabama, 256 F.3d 1156, 1171 (11th Cir. 2001).
DISCUSSION
Ground One
In Ground One, Petitioner contends that he is innocent of second-degree murder
because he acted in self-defense and was in a state of temporary amnesia when he killed
his girlfriend. (Doc. 1, pp. 4-5.) Petitioner states that he raised this issue in his second
Rule 3.850 motion, which was dismissed as successive. (Exh. AA.) In his successive Rule
3.850 motion, Petitioner argued that there was an insufficient factual basis for his guilty
plea.

(Exh. Z.)

To the extent his argument in Ground One and his sufficiency of the

evidence argument raised in his successive Rule 3.850 motion are the same argument
Petitioner has procedurally defaulted Ground One and it is therefore precluded from federal
review. See, e.g., Kimbrough v. Sec’y, Fla. Dep’t of Corn, 809 Fed. Appx. 684, 692 (11th
Cir. 2020) (finding habeas petitioner had procedurally defaulted his 2254 claim where it was
raised in his successive Rule 3.850 motion). Petitioner has not demonstrated entitlement to
any exception to the procedural default doctrine.
Even if Petitioner had not procedurally defaulted his claim, Eleventh Circuit
precedent forecloses habeas relief based on a prisoner's assertion that he is actually
innocent of the crime of conviction “absent an independent constitutional violation occurring
8

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 9 of 21 PagelD 1025

in the underlying state criminal proceeding.” Brownlee v. Haley, 306 F.3d 1043, 1065 (11th
Cir. 2002)); see also Cunningham v. Dist. Attorney’s Office for Escambia Cty., 592 F.3d
1237, 1272 (11th Cir. 2010) (“[T]his Court’s own precedent does not allow habeas relief on
a freestanding innocence claim in non-capital cases.”).
Ground One is procedurally defaulted and without merit.
Ground Two
In Ground Two, Petitioner argues that trial counsel was constitutionally ineffective for
failing to depose the State’s witnesses. (Doc. 1, pp. 6-7.) Respondents contend Petitioner
did not raise this issue in the state courts and therefore failed to properly exhaust it. (Doc.
14.) Petitioner contends he raised his issue in his first Rule 3.850 motion. (Doc.1, pp. 6-7;
Exh. T.) However, his argument in that motion was only that trial counsel did not object to
the prosecutor’s questioning during the deposition of a defense witness. (Exh. T, p. 5.)
Because Petitioner failed to present Ground Two to the state courts, it is unexhausted and
procedurally defaulted.
Generally, federal courts cannot review procedurally defaulted claims. However, In
Martinez v. Ryan, 132 S. Ct. 1309 (2012), the Supreme Court held that “[wjhere, under
state law, claims of ineffective assistance of trial counsel must be raised in an initial-review
collateral proceeding, a procedural default will not bar a federal habeas court from hearing a
substantial claim of ineffective assistance at trial if, in the initial-review collateral proceeding,
there was no counsel or counsel in that proceeding was ineffective.” Martinez, 132 S. Ct. at
1320. A “substantial” ineffective assistance claim is one with “some merit.” Id. at 1318.
Ground Two is not “substantial” so as to afford Petitioner the Martinez exception to
the procedural default doctrine for ineffective assistance of counsel claims. Even assuming
9

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 10 of 21 PagelD 1026

deficient performance, Petitioner has not pointed to how he was prejudiced by a failure to
depose the State’s witnesses. In other words, he has not shown that but for trial counsel’s
failure to depose the State’s witnesses, he would not have entered a guilty plea. In Ground
Five of the present petition, Petitioner states that he pleaded guilty because he thought he
would get a more lenient sentence. (Doc. 1, p. 11.) Ground Two is not “substantial.”
Petitioner procedurally defaulted Ground Two and has not demonstrated entitlement
to any exception to the procedural default doctrine. Therefore, Ground Two is dismissed.
Ground Three
In Ground Three, Petitioner argues that trial counsel was ineffective for failing to
discuss a trial strategy of self-dense with him prior to trial. (Doc. 1, pp. 7-8.) In denying this
claim on post-conviction review, the state court wrote:
Defendant argues that counsel was ineffective for failing to prepare
Defendant for a self-defense trial. He contends Ms. Hammond never
discussed trial strategies for presenting a self-defense case, but would
only talk to him about taking a plea. This argument is without merit.
As noted above, this Court finds the Defendant raised this issue in his
hearing on his Motion to Withdraw Plea. In this Court's March 7, 2014
Order denying Defendant's Motion to Withdraw his plea, this Court found
counsel was not ineffective. To the extent the Defendant is attempting to
relitigate these issues, he is barred.
Furthermore, Ms. Hammond's testimony contradicts the Defendant's
assertions. She testified at the hearing on the Motion to Withdraw Plea
that prior to going to trial, the Defendant had made it clear he was not
interested in plea negotiations and wanted to tell his story. He became
interested in a plea deal the weekend before trial. (See exhibit L at 43).
This Court notes Ms. Hammond testified she discussed and explained
legal issues, etc. with the Defendant. (See exhibit L at 51). She further
testified she did not try to pursue a plea agreement with the State prior to
trial because the Defendant did not want to consider a plea until just
before the trial began. She testified that after the first day of trial she did
not go to the jail to get him to enter a plea. (See exhibit L at 54-55).
10

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 11 of 21 PagelD 1027

Thus, this Court finds it was the Defendant who wished to pursue a plea
deal. Further, the record shows Ms. Hammond issued subpoenas for
depositions and conducted a deposition of a potential witness. (See
exhibit M). She also played the police interviews for the Defendant. (See
exhibit L at 59-60). Thus, this Court finds this argument to be without merit
and issue five is DENIED.
(Exh. U, p. 12-13.) This decision was affirmed by the Fifth District Court of Appeal. (Exh.
X.)
In addition to the reasons discussed by the State court above, the Court notes that
trial counsel did present the theory of self-defense to the jury in her opening statements at
the unfinished trial: “There is the defense of self-defense and Mr. Givens raised that
defense the day he gave his statement to the police and he will give it to you again during
this trial. . . . she did threaten him with a knife and attacked him. . . .” (Exh. C, pp. 20-21.)
Trial counsel presented the theory of self-defense from her first address to the jury, and
Petitioner chose to plead guilty before the defense presented any evidence. Petitioner has
not demonstrated that he was prejudiced by trial counsel’s handling of the self-defense
strategy before or during trial, especially where he states in the present petition that his
reason for pleading guilty was the potential of a reduced sentence.
Petitioner has failed to demonstrate that the state court’s rejection of this claim was
contrary to, or an unreasonable application of Strickland, or an unreasonable determination
of the facts in light of the evidence adduced in state court. Ground Three is without merit.
Ground Four
In Ground Four, Petitioner argues that trial counsel was constitutionally ineffective
because she was not assigned to his case long enough to defend him and did not visit him
in jail frequently enough. (Doc. 1, pp. 9-10.) Petitioner says that he raised this issue in his
11

Case 5:17-cv-00160-MSS-PRL Documents Filed 09/29/20 Page 12 of 21 PagelD 1028

motion to withdraw his plea in the trial court. (Id. at 10.) Respondents contend that this
ground is unexhausted'because Petitioner did not properly present it to the state appellate
courts. (Doc. 14, pp. 13-14.)
Although Petitioner may have presented his arguments in his motion to withdraw
before the trial court, claims of ineffective assistance of counsel are properly presented in a
Rule 3.850 motion, not at trial or in a direct appeal. Because Petitioner did not raise Ground
Four in his first (non-successive) Rule 3.850 motion, it is unexhausted and now procedurally
barred.
Petitioner is not entitled to exception from procedural default under Martinez because
he has failed to demonstrate that the ineffective assistance claim raised in Ground Four is
“substantial.” Martinez, 132 S. Ct. at 1320. The record shows that Petitioner was charged
by information on May 11,2012. (Exh. A.) Ms. Hammond filed her notice of appearance on
May 15, 2012. (Exh. HH.) Defense counsel Grossenbacher came onto the case solely to
assist Ms. Hammond when it appeared the case was going to trial. (Exh. 1, pp. 41, 63.)
The trial commenced on June 10, 2013, more than one year after Ms. Hammond began her
representation of the Petitioner. (Exh. C.) Further, Petitioner has not demonstrated that he
was prejudiced by any perceived shortcomings in the length of time Ms. Hammond was
assigned to his case. Ground Four does not have “some merit” so as to be a “substantial”
claim under Martinez.
Petitioner procedurally defaulted Ground Four and has not demonstrated entitlement
to any exception to the procedural default doctrine. Therefore, Ground Four is dismissed.

12

Case 5:17-cv-p0160-MSS-PRL Document 24 Filed 09/29/20 Page 13 of 21 PagelD 1029

Ground Five
In Ground Five, Petitioner argues that he was coerced by his attorneys into pleading
guilty with the promise that the he would receive leniency from the judge if he entered a
guilty plea. (Doc. 1, pp. 10-11.) In rejecting this claim on post-conviction review, the state
court wrote:
Ms. Hammond testified she periodically met with the Defendant during the
time she represented him. (See exhibit L at 43). The weekend prior to the
trial, the Defendant indicated to Ms. Hammond he would consider a plea
offer. (See exhibit L at 43). She approached the prosecutor the same
weekend with a plea offer which was refused. Contrary to the Defendant's
assertions in his motion, after the first day of trial, Ms. Hammond and Mr.
Grossenbacher testified the Defendant did not want to pursue the trial any
further and, in fact, did not want to go back to the courtroom. (See exhibit
L at 44, 55). Ms. Hammond discussed the possibility of a plea deal and
the Defendant signed a plea agreement for 30-years’ imprisonment. Ms.
Hammond testified she went over everything regarding the plea deal with
the Defendant. (See exhibit L at 44-48). Both attorneys denied
threatening, yelling or using similar tactics to force the Defendant into
taking a plea. (See exhibit L at 51 )2.
(Exh. U, pp. 7-8).

This decision was affirmed by the Fifth District Court of

Appeal. (Exh. X.)
Here, the record supports the state courts’ conclusions that Petitioner’s guilty plea
was knowingly, voluntarily, and intelligently entered. “Solemn declarations in open court
carry a strong presumption of veracity” and “constitute a formidable barrier in any
subsequent proceeding.” Blackledge v. Allison, 431 U.S. 63 (1977). At his change of plea
hearing, Petitioner stated under oath that understood and had signed a Waiver of Rights
and Agreement to Enter Plea. (Exh. C, pp. 151-52; Exh. D.) That form stated that he
understood the judge could give him any term of imprisonment, including life in prison.

2 As discussed below, the 30-year plea proposal was ultimately rejected by the State, and the Court

13

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 14 of 21 PagelD 1030

(Exh. D.) The rest of the relevant exchange during the change of plea of hearing is as
follows:
THE COURT:

Are you entering your plea here today freely and
voluntarily?

THE DEFENDANT: Yes, sir.
THR COURT:

You’re also waiving your right to have the State prove
this charge beyond a reasonable doubt to the jury
before you could be found guilty. Do you understand
that?

THE DEFENDANT: Yes, sir.
THE COURT:

And is the State or defense aware of any DNA
evidence that would exonerate Mr. Givens of this
charge?

MR. GROSS:

Absolutely none, Your Honor. It would just incriminate
him.

THE COURT:

Okay.

MS. HAMMOND:

We are not aware -

THE COURT:

Is defense aware of any?

MS. HAMMOND:

No, sir, Your Honor.

THE COURT:

Mr. Givens, are you entering your plea here today
freely and voluntarily?

THE DEFENDANT: Yes sir.
THE COURT:

You need answer out loud.

thoroughly addressed this with the Petitioner before accepting his “open” plea.
14

Case 5:17-cv-p0160-MSS-PRL Document 24 Filed 09/29/20 Page 15 of 21 PagelD 1031

THE DEFENDANT: Yes, sir. Yes, sir
THE COURT:

Okay. Nobody’s forcing you to do this against your
will; is that correct?

THE DEFENDANT: At the advice of my attorneys.
THE COURT:

Okay. Well, with that advice, it’s your decision. They
can - they are to advise you, correct, but it’s your
decision on whether you enter this plea or not.

THE DEFENDANT: I made a decision —
THE COURT:

Okay.

THE DEFENDANT: - on their advice.

THE COURT:

And do you understand as your attorney has said that
you could be sentenced up to life in prison?

THE DEFENDANT: Yes, sir.
THE COURT:

You understand there are no agreements with the
sentence that will be imposed?
There’s no
guarantees. You could be sentenced to life in prison.
Do you understand that?

MS. HAMMOND:

You understand that - right - that you could get less
than life but you also could get life?

THE DEFENDANT: Yes, sir.
THE COURT:

Okay. Are you entering this plea of guilty because you
are, in fact, guilty of this offense?
15

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 16 of 21 PagelD 1032

THE DEFENDANT: Yes, sir.
THE COURT:

Any other questions, Mr. Gross?

MR. GROSS:

No, sir. I just want to make sure it’s clear on the
record that the defendant understands that - and
maybe you should also know how we’ve come to this
point.
As of, I believe, yesterday morning, the offer of 25
years was rejected by the prosecution. I said I thought
maybe 40 would work.
Today we received a plea offer signed by the
defendant for 30 years. I think that was the document
that Ms. Hammond talked to me about last night. I told
her that 30 would not work at which point the number
was changed - probably you can see it there - to 35.
And I then discussed with the family just during the
recess a few minutes ago and they were opposed to
the 35 years and so I advised counsel that 35 years is
not going to work either at which point the defendant
discussed with his attorneys for a few minutes in
private and then this announcement was just made.
I want the defendant to know and the record to reflect
that the defendant understands the family of Carol
Benton will settle for nothing less than your life behind
bars That’s what they will be demanding that the
judge impose. The judge doesn’t have to follow their
request, but that’s the State’s position.
So, Mr. Givens, I don’t want you later on to say that
you were misinformed or somehow confused about
your situation here today. There is a distinct chance
that once the judge hears all of the facts and hears
from the family, sees the photos of the damage that
you did to this lady’s body, which I don’t think the judge
has seen yet, that he may very well sentence you to
life in prison.
16

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 17 of 21 PagelD 1033

Do you have any questions about anything that we
have been discussing here, Mr. Givens, today?
THE DEFENDANT: Yes.
MR. GROSS:

What questions [do] you have, sir?

THE DEFENDANT: That I was unaware of the situation.
MR. GROSS:

What situation?

THE DEFENDANT: The damage that I had done.
MR. GROSS:

But you are now?

THE DEFENDANT: Yes. This is my first time being informed about the
damages that I had did.
MR. GROSS:

Do you have any questions about what we’ve been
discussing with you in this courtroom here this
morning?

THE DEFENDANT: No, sir.
MR. GROSS:

Thank you, Your Honor. Nothing else.

THE COURT:

So, Mr. Givens, with that do you still want to enter your
plea of guilty?

THE DEFENDANT: Yes, sir.
(Exh. C, pp. 153-57.)
Petitioner asks this Court to ignore his statements made under oath.

His claim is

clearly refuted by the record. He signed and initialed a plea form that specifically stated he
17

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 18 of 21 PagelD 1034

could.get up to life in prison. (Exh. D.) Petitioner stated, under oath, that he did sign the
document.

(Exh. C, pp. 151-52.)

He also stated under oath that his plea was being

entered knowingly and voluntarily; that he knew he could get up to life in prison; and, even
after the prosecutor told him there was a “distinct chance” he would still receive a sentence
of life in prison, he still agreed to enter his plea. (Id. at 153-57.)
Further, the post-conviction court found trial counsels’ testimony regarding the pre­
plea discussions to be more credible than Petitioner’s assertions.

(Exh. U, pp. 7-8.)

“Determining the credibility of witnesses is the province and function of the state courts, not
a federal court engaging in habeas review." Consalvo v. Sec’y for Dep’t of Corn, 664 F.3d
842, 845 (11th Cir. 2011).

“Federal courts have no license to redetermine credibility of

witnesses whose demeanor has been observed by the state trial court, but not by them."
Id. “In the absence of clear and convincing evidence, we have no power on federal habeas
review to revisit the state court’s credibility determinations.” Bishop v. Warden, GDCP, 726
i

F.3d 1243, 1259 (11th Cir. 2013).
Petitioner has not shown that the state court’s rejection of his challenge to his entry
of a guilty plea was contrary to or an unreasonable application of clearly established federal
law or that it was based on an unreasonable determination of the facts. Petitioner is not
entitled to relief on Ground Five.
Ground Six
In Ground Six, Petitioner argues that his speedy trial rights were violated because his
trial counsel waived speedy trial and forged Petitioner’s signature.

(Doc. 1, pp. 12-13.)

Petitioner asserts that he raised this issue in his first Rule 3.850 motion. (Id.) Respondents
contend that this claim is unexhausted. (Doc. 14, pp. 15-16.)
18

Case 5:17-cv-00160-MSS-PRL Document 24 Filed 09/29/20 Page 19 of 21 Page!D 1035

In Petitioner’s first Rule 3.850 motion, he argued that trial counsel was ineffective
because, inter alia, Ms. Hammond waived his speedy trial rights without his permission in
2012. (Exh. T, p. 5.) In the present petition, Petitioner raises a substantive claim that his
speedy trial rights were violated, not an ineffective assistance of counsel claim. (Doc. 1, pp.
12*13.)

Petitioner’s Reply confirms that he is asserting a substantive speedy trial claim

rather than an ineffective assistance of counsel claim; he makes no mention of ineffective
assistance of counsel and solely refers to the alleged violation of his Sixth Amendment right
to a speedy trial. (Doc. 17, pp. 10-13.)
Petitioner did not raise a substantive speedy trial claim in his direct appeal. (Exh. O.)
Because he did not properly present this claim in the state court, it is now procedurally
defaulted.

See, e.g., Sequoia v. State, 678 So. 2d 493, 493 (Fla. 4th DCA 1996)

(“[V]iolation of the speedy trial rule should have been raised in a direct appeal from his
conviction and sentence. Having failed to raise it, appellant is precluded from challenging
his conviction at this time.”) Defaulted claims are precluded from federal habeas review
absent any applicable exception to the doctrine.

Petitioner has not demonstrated

entitlement to any such exception and therefore Ground Six is dismissed.
Ground Seven
In Ground Seven, Petitioner argues that trial counsel was ineffective for failing to
object to the introduction of a butcher knife with a black handle, which he contends was not
the knife allegedly used by the victim. (Doc. 1, pp. 13-14.) In rejecting this claim on post­
conviction review, the state court wrote:
Defendant argues counsel was ineffective for failing to object to wrong
evidence being entered into trial, i.e., the black handled butcher knife. He
contends he told counsel that the knife was not the one used by the victim.
19

Case 5::L7-cv-p0160-MSS-PRL Document 24 Filed 09/29/20 Page 20 of 21 PagelD 1036

Defendant maintains the victim attacked him with a brown-handled knife.
He contends counsel was not interested in this fact.
This Court finds the Defendant’s argument fails to establish a proper claim
that counsel was ineffective. The State had a right to put on its case and
its assertion was the knife shown was the murder weapon. Defendant fails
to understand that to contest a piece of evidence, a defendant can present
evidence refuting the State's assertion. Counsel was not infective for
failing to object to Ms. Wolford's testimony. Issue six is DENIED.
(Exh. U, p. 13.) This decision was affirmed by the Fifth District Court of Appeal. (Exh. X.)
The knife was introduced into evidence after the testimony of the crime scene
investigator, who testified it was the only knife with blood on it found at the victim’s
residence.

(Exh. C, pp. 61-72.) Petitioner states in the present petition, and stated to

police officers who testified at trial, that he blacked out during the killing. (Doc. 1, p. 5; Exh.
C., p. 121.) Trial counsel cannot be faulted for failing to raise an objection that could not be
supported by competent evidence or argument. Further, Petitioner has failed to
demonstrate that under Strickland, but for the failure to object to the introduction of the
knife, he would not have pleaded guilty to second-degree murder
Petitioner has failed to demonstrate that the state court’s rejection of this claim was
contrary to, or an unreasonable application of Strickland, or an unreasonable determination
of the facts in light of the evidence adduced in state court. Ground Seven is without merit.
CONCLUSION
Accordingly, the petition for the writ of habeas corpus (Doc. 1) is DENIED. Any
of Petitioner’s allegations not specifically addressed herein have been found to be
without merit. The CLERK is directed to enter a judgment against Petitioner and to
CLOSE this case.
20
/
/

Case 5:17-cv-p0160-MSS-PRL Document 24 Filed 09/29/20 Page 21 of 21 PagelD 1037

DENIAL OF BOTHA
CERTIFICATE OF APPEALABILITY
AND LEAVE TO APPEAL IN FORMA PAUPERIS
IT IS FURTHER ORDERED that Petitioner is not entitled to a certificate of
appealability. A prisoner seeking a writ of habeas corpus has no absolute entitlement to
appeal a district court’s denial of his petition. 28 U.S.C. § 2253(c)(1). Rather, a district
court must first issue a certificate of appealability (“COA”). Section 2253(c)(2) limits the
issuing of a COA “only if the applicant has made a substantial showing of the denial of a
constitutional right.” To merit a certificate of appealability, Petitioner must show that
reasonable jurists would find debatable both the merits of the underlying claims and the
procedural issues. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478
(2000); Eagle v. Linahan, 279 F.3d 926, 935 (11th Cir. 2001). Because he fails to show
that reasonable jurists would debate either the merits of the claims or the procedural'
issues, Petitioner is not entitled to a certificate of appealability, and he is not entitled to
appeal in forma pauperis.
Accordingly, a certificate of appealability is DENIED. Leave to appeal in forma
pauperis is DENIED. Petitioner must obtain permission from the circuit court to appeal in
forma pauperis.
DONE AND ORDERED in Ocala, Florida, this 29th day of September 2020.

MAR'
:n
UNITED STATES DISTRICT JUDGE

21
/
t

Case 5:17-c\/-00160-MSS-PRL Document 25 Filed 09/29/20 Page 1 of 2 PagelD 1038

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
CHARLES GIVENS,
Petitioner,
v.

Case No: 5:17-cv-160-Oc-35PRL

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA
Respondents.

JUDGMENT IN A CIVIL CASE
Decision by Court. This action came before the Court and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
Pursuant to the court's order entered on September 29, 2020, judgment is entered against
the Petitioner, Charles Givens and in favor of the Respondents, Secretary, Department of
Corrections and Florida Attorney General, State of Florida. The petition for writ of
habeas corpus is denied and this case is hereby dismissed.
ELIZABETH M. WARREN,
CLERK
s/L. Burget, Deputy Clerk

